   AUDIT REPORT
U.S. Fish and Wildlife Service
  Federal Assistance Grants
 Administered by the State of
Colorado, Division of Wildlife,
  from July 1, 2001, through
        June 30, 2003




  Report No. R-GR-FWS-0003-2004

                       March 2005
      1.           United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                          External Audits
                                12030 Sunrise Valley Drive, Suite 230
                                       Reston, Virginia 20191


                                                                                    March 8, 2005

                                         AUDIT REPORT
Memorandum

To:           Director
              U.S. Fish and Wildlife Service

From:         Andrew Fedak
              Director of External Audits

Subject:      Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
              Grants Administered by the State of Colorado, Division of Wildlife, from
              July 1, 2001 through June 30, 2003 (No. R-GR-FWS-0003-2004)


        This report presents the results of our audit of costs incurred by the State of Colorado,
Division of Wildlife (Division), under Federal Assistance grants from the U.S. Fish and Wildlife
Service (FWS). The audit included claims that totaled approximately $27.6 million on FWS
grants that were open during the State’s fiscal years ended June 30, 2002 and 2003 (see
Appendix 1). We also reviewed the Division’s compliance with certain regulatory and other
requirements, including those related to the collection and use of State hunting and fishing
license revenues and the reporting of program income.

           We found that the Division:

      ¾ Computed an in-kind match of $384,965 for volunteer instructors based on estimated
        hours rather than the actual hours recorded on the volunteers’ timesheets.
      ¾ Could not support $296,027 transferred to another State agency and charged to a Federal
        Assistance grant.
      ¾ Did not report program income of $56,153 on grants for the operation and maintenance
        of State Wildlife Areas.
      ¾ Entered into non-cash agreements for habitat improvement or maintenance on State
        Wildlife Areas but did not report the value of the improvement or maintenance as
        program income.
      ¾ Lacked sufficient controls to prevent an employee from recording 506 hours as time
        worked in one day.
      ¾ Charged the cost of operating and maintaining real property acquired through the Land
        and Water Conservation Fund Act to Federal Assistance grants.
      ¾ Lacked sufficient controls to prevent former Division and contractor employees from
        accessing its network.
      ¾ Could not locate eight personal property items that were on its inventory and possessed
        six personal property items that were not on its inventory.
      ¾ Did not assign State identification property numbers to 31 personal property items on its
        inventory.

        FWS Region 6 provided a response to a draft of this report on December 17, 2004, which
included a copy of the Division’s December 10, 2004 response to FWS. FWS also submitted a
supplemental response on February 7, 2005. FWS generally concurred with the audit findings
and recommendations and stated that it would incorporate or consider the Division’s proposed
actions in the development of the corrective action plan. We summarized the Division and FWS
responses after the recommendations and added our comments regarding the responses. The
status of the recommendations is summarized in Appendix 3.

        In accordance with the Departmental Manual (361 DM 1), please provide us with your
written response to the recommendations included in this report by June 9, 2005. Your response
should include the information requested in Appendix 3. If you have any questions regarding this
report, please contact me at (703) 487-5345 or Mr. John Kerrins, Audit Team Leader, at (303)
929-3758.

cc:    Regional Director, Region 6
        U.S. Fish and Wildlife Service




                                                 2
                                             Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize the U.S. Fish and Wildlife Service (FWS) to provide Federal Assistance
grants to states to enhance their sport fish and wildlife programs. The Acts provide for FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. They also
specify that state hunting and fishing license revenues cannot be used for any purpose other than
the administration of the state’s fish and game agencies.

Scope, Objective, and Methodology
We performed our audit at the Colorado Division of Wildlife (Division) and Department of
Natural Resources offices in Denver, Colorado. The audit work at the Division included claims
that totaled approximately $27.6 million on FWS grants that were open during the State’s fiscal
years (SFYs) ended June 30, 2002 and 2003 (see Appendix 1). We also visited the Division
regional offices, State Wildlife Areas, a fish hatchery, motorboat access sites, and “Fishing is
Fun” project sites (see Appendix 2).

The objective of our audit was to evaluate:

               ¾ The adequacy of the Division’s accounting system and related internal controls.
               ¾ The accuracy and eligibility of the direct and indirect costs claimed under the
                 Federal Assistance grant agreements with FWS.
               ¾ The adequacy and reliability of the Division’s hunting and fishing license fees
                 collection, certification and disbursement processes.
               ¾ The adequacy of the Division’s asset management system and related internal
                 controls with regard to purchasing, maintenance, control and disposal.
               ¾ The adequacy of the State’s compliance with the Acts’ assent legislation
                 requirements.
               ¾ Other issues considered sensitive and/or significant by FWS.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the Division to
the grants; interviews with employees to ensure that personnel costs charged to the grants were
supportable; and a review of the Division’s use of fishing and hunting license revenues to
determine whether the revenues had been used for program purposes. We relied on the work of
the auditors for the State of Colorado Single Audit to the extent possible in order to avoid

1
    Volume 16 U.S.C. § 669 and volume 16 U.S.C. § 777, as amended.




                                                       3
duplication of effort. We did not evaluate the economy, efficiency, or effectiveness of the
Commission’s operations.

Prior Audit Coverage
On January 16, 1998, we issued audit report No. 98-E-198, “Audit Report on U.S. Fish and
Wildlife Service Federal Aid Grants to the State of Colorado for Fiscal Years 1994 and 1995.”
We reviewed this report and followed up on all findings to determine whether they had been
resolved prior to our review. Our review found that all prior findings were resolved. We
reviewed the SFY 2002 and 2003 Single Audits, which identified a lack of controls over capital
asset tracking by the Department of Natural Resources (Department), which maintains the
Division’s personal property inventory records. Our review found that the Division’s personal
property inventory contained inaccurate data and not all Division personal property items had a
State identification property tag number assigned and entered in the inventory listing (see
Findings H and I).




                                                4
                                    Results of Audit
Our review disclosed that, except for the issues identified below:

            ¾ The Division’s accounting system and related internal controls adequately and
              accurately accounted for grant and license receipts and disbursements.
            ¾ The direct and indirect costs were accurately reported and claimed.
            ¾ The State had adequate legislation that assented to the provisions of the Acts and
              prohibited the use of license fees for anything other than the administration of the
              Division.

We questioned costs totaling $680,992 for:

       A.      Unsupported in-kind matching costs of $384,965 charged to the hunter education
               grants.

       B.      A transfer of $296,027 to the Water Conservation Board that was not supported
               by documentation of the actual costs incurred by the Board.

We also found that:

       C.      The Division did not report $56,153 of program income derived from State
               Wildlife Areas (SWAs) receiving Federal Assistance funding for operation and
               maintenance.

       D.      The Division did not record or report the revenues and expenses related to non-
               cash agreements with individuals, non-profit organizations, and other agencies.

       E.      The automated timekeeping system (KRONOS) did not contain sufficient edits to
               prevent an employee from recording 506 hours worked during one day.

       F.      The Division charged the cost of operating and maintaining real property acquired
               through the Land and Water Conservation Fund Act to Federal Assistance grants
               although the Act required the state to maintain these assets at its own expense.

       G.      Former Division employees’ and contractors’ access privileges to the computer
               network were not removed in a timely manner when employment was terminated.

       H.      The Division’s personal property inventory contained inaccurate data.

       I.      Some items on the Division’s personal property inventory did not have a State ID
               property tag number assigned.




                                                 5
Questioned Costs

A. In-Kind Matching Contributions - $384,965
The Division did not compile or use the volunteer instructor hours recorded on instructor
timesheets to calculate the value of the in-kind match that it claimed on the hunter education
grants. Instead, the Division used an average number of hours per course, based on a judgmental
sample of courses, to compute the value of the in-kind match.

In October 2003, the Division began entering information from the individual instructor
timesheets into a database. When completed, the database should provide for the compilation of
the hours by instructor as well as an audit trail. According to 43 CFR §12.64 (b) (6), records for
in-kind contributions must be verifiable and should be supported by the same methods used to
support regular personnel costs. However, the Division was unaware that using an average
number of hours per course was not an acceptable method for supporting in-kind matching
contributions.

As a result, the $384,965 claimed as in-kind matching costs for the hunter education grants is
unsupported, as follows:

                            Schedule of In-Kind Matching Costs

             Grant                               Total Claimed          Questioned
           W-148-E-15                                 $183,046           $183,046
           W-148-E-16                                  201,919            201,919
            Total                                     $384,965           $384,965

       Recommendations
       We recommend that FWS:

       1. Resolve the $384,965 of questioned in-kind matching costs.

       2. Ensure the Division maintains a database, such as the one it started in October 2003,
          to record volunteer instructor hours, and uses the data to calculate the value of the in-
          kind volunteer instructor services.

       Division Response
       The Division concurred with the finding. The Division stated that the costs were
       unsupported because its estimates of the value of volunteer hours were developed using
       an unacceptable methodology, which Division program managers believed, erroneously,
       was acceptable. The Division also stated that it did in fact collect information on hours
       worked by volunteer instructors, and will compile the information to support the amount




                                                 6
        in question. The Division further stated that it has completed the database for the
        volunteer instructor hours and will compile the data annually.

        FWS Response
        FWS concurred with the finding and recommendations and stated that the Division’s
        proposals to implement the recommendations will be incorporated in the corrective action
        plan.

        Office of Inspector General Comments
        Based on the responses, we consider this finding resolved but the recommendations not
        implemented.

B. Transfer to the Water Conservation Board - $296,027
The Division transferred $296,027 to the Colorado Water Conservation Board2 (Board) in SFY
2002. The $296,027 was charged to the Grant FW-28-T-15.3 However, the Division did not
maintain source documents to support actual costs incurred by the Board for grant purposes.
According to 50 CFR § 80.15 (a), all costs must be supported by source documents or other
records as necessary to substantiate the application of funds. The Division has been making
annual transfers to the Board based on the authorization contained in the annual appropriation
bill. The amount of $296,027 transferred to the Board during 2002 and claimed as a grant cost is
unsupported.

        Recommendations4
        We recommend that FWS:

        1.    Work with the Division to resolve the $296,027 of questioned costs charged to Grant
              FW-28-T-15 for SFY 2002.

        2.    Require the Division to develop procedures to ensure that charges for the work
              performed by the Board are adequately supported.

        Division Response
        The Division partially concurred with the finding. The Division agreed that source
        documents to support actual costs incurred by the Board for grant purposes were not
        maintained. However, it stated that it did not believe that 50 CFR § 80.15(a) requires
2
  The Board is charged with appropriating in-stream flow water rights on behalf of the Division. Both the Board and
the Division are part of the Department.
3
  Although the Division transferred funds to the Board in SFY 2003, the Division did not claim the transfer in any
Federal Assistance grants.
4
  Based on the Division’s response to the draft report, we have added a second recommendation for this finding.
Neither the Division nor FWS have had the opportunity to review or provide comments on this recommendation.




                                                        7
documentation to support costs incurred by the Board, which they consider to be a
contractor. The Division further stated that it believes records are available to substantiate
the transfer to the Board. To support the reasonableness of the $297,027 charge, the
Division stated that:

    •   The Board incurred actual costs of $647,569 for its Instream Flow Program.
    •   The Division transfer amounted to 46 percent of the Board’s actual cost.
    •   Well over half of the projects in the Division’s Instream Flow and Natural Lake
        Level Work Plan are documented to be Division priorities.

The Division also stated that to comply with 50 CFR § 80.15(a) in the future, it plans to
negotiate an annual “memo of understanding” with the Board that will include
deliverables, a payment schedule, and annual accomplishment reporting requirements.

FWS Response
FWS concurred with the finding and recommendation and stated that the Division’s
comments and proposal to implement the recommendations will be considered in the
development of the corrective action plan.

Office of Inspector General Comments
We do not agree that the Board was a contractor of the Division on this project. OMB
Circular A-87, Attachment A, Section B.8, defines a contract to be a mutually binding
legal relationship. Since both the Division and the Board are State agencies, we do not
believe that their arrangement would be legally binding.

The Division’s plan to negotiate an annual memorandum of understanding with the Board
is a positive step in avoiding this problem in the future. However, we believe that the
regulations require the Division or the Board to maintain source documents for costs
charge to the grant. Specifically, 50 CFR § 80.15(a) states that all costs must be
supported by source documents or other records to substantiate the application of funds.
We do not consider a transfer of funds to another state agency to be adequate source
documentation for costs incurred by that agency.

To determine the appropriateness of the charges for the Board’s work, FWS will need to
obtain documentation from the Division that supports the reported $647,569 spent by the
Board on the Instream Flow Program and the basis for and the reasonableness of the
46 percent rate used to compute the Division’s $296,027 share of these costs. In that
regard, we noted that the response appears to justify the 46 percent rate based, in part, on
the statement that over half of the projects in the Work Plan are Division priorities.
However, the response also indicates that the Board “works very closely” with several
Federal, state, and local government organizations, nonprofit organizations, and other
interested parties, which may also have participated in or benefited from the Division’s
priority projects. FWS should ensure that the 46 percent rate is based on a reasonable




                                          8
       allocation of costs among those parties that participated in or benefited from those
       projects identified as the Division’s priorities.

       We do not consider the responses sufficient to resolve this finding. We urge FWS to
       consider our comments when developing and implementing the corrective action plan.


Additional Findings
C. Unreported Program Income - $56,153
The Division reported $26,780 of program income for SFY’s 2002 and 2003 on Grants FW-46-
M-3 and FW-46-M-4, which provided funds for the operation and maintenance of its SWAs.
However, the Division did not report additional revenues of $56,153 (see below) from crop and
grazing permits, easements, and a communication site lease settlement. According to
43 CFR § 12.65 (b), program income is gross income received by a grantee directly generated by
a grant-supported activity. In addition, 43 CFR § 12.65 (g) requires that program income be
deducted from grant outlays, added to the funds committed to the grant agreement, or used to
meet the cost sharing or matching requirement. These additional revenues were derived from
agreements involving the use of lands located on SWAs receiving Federal Assistance funds for
their operation and maintenance, as follows:

                            Schedule of Unreported Program Income

                                                    SFY 2002     SFY 2003        Total
        Crop permits                                   $6,716       $9,252       $15,968
        Grazing permits                                14,850       14,527        29,377
        Gas pipeline easement                                        2,000         2,000
        Water pipeline easement                                        100           100
        Communication site lease settlement             8,708                      8,708
         Total                                        $30,274       $25,879      $56,153

Several Federal Assistance grants included a condition that required revenue derived from SWAs
to be reported as program income. However, the Division did not have procedures to ensure that
all revenue received from leases and permits on SWAs receiving Federal Assistance funding for
operation and maintenance were reported on the Financial Status Report (SF 269) as program
income.

       Recommendations
       We recommend that FWS:

       1.     Resolve the unreported program income of $56,153 for SFYs 2002 and 2003.




                                                9
        2.       Require the Division to implement procedures to ensure that all program income
                 is reported on the Financial Status Report.

        Division Response
        The Division concurred with the finding. However, the Division stated that rather than
        adjusting the State accounting records or the Financial Status Reports for accounting
        periods which have been already closed, it would increase the State match in the amount
        of $56,153 and decrease the Federal funds by $56,153 for SFY 2006 on Grant
        FW-46-M-7. The Division also stated that it will develop procedures by June 30, 2005,
        to ensure that all revenues received from the use of lands which receive Federal
        Assistance funds are reviewed annually to ensure that the program income is properly
        reported.

        FWS Response
        FWS concurred with the finding and recommendations and stated that the Division’s
        proposal to implement the recommendations will be incorporated in the corrective action
        plan.

        Office of Inspector General Comments

        Based on the responses, we consider this finding resolved but the recommendations not
        implemented.

D. Value of Barter Transactions Not Reported
Program income is defined in 43 CFR § 12.65 (b) as gross income received by a grantee directly
generated by a grant supported activity, or earned only as a result of the grant agreement during
the grant period. In addition, 43 CFR § 12.65 (g) requires that program income be deducted from
grant outlays, added to the funds committed to the grant agreement, or used to meet the cost
sharing or matching requirement.

The Division entered into various verbal and written non-cash agreements5 which allowed
individuals, nonprofit entities, and other agencies to conduct activities on SWA lands in
exchange for habitat improvement, maintenance, or other services or goods. However, we found
that the Division did not record the fair market value of the goods and services received or the
Division’s related expenses in its accounting system, or report this information on its financial
status report. For example, a farmer was allowed to farm on a SWA in exchange for leaving a
portion of the crop as food for the wildlife. We found that the Division did not report the
program income (value of the crop received) or the related expenses (the fair market value of the

5
 These agreements are known as barter, cooperative, temporary use, sharecropping, or exchange agreements,
depending on the character of the agreement. The Division does not maintain a listing of non-cash agreements,
either by location or type.




                                                        10
right to farm the land) on its Financial Status Report or record the transactions in its accounting
records, and had not identified the terms of this arrangement in its Application for Federal
Assistance.

       Recommendation
       We recommend that FWS require the Division to record and report in its Applications for
       Federal Assistance and its Financial Status Reports the estimated and actual value,
       respectively, of the goods and services received on all non-cash arrangements that have
       an effect on the State’s Federal Assistance grants.

       Division Response
       The Division stated that it does not concur that program income accrues from non-cash
       exchange agreements on properties that receive Federal Assistance funds. The Division
       further stated that, “the practical implementation of the recommendation is problematic
       because (1) the definitions of “gross income” and “directly generated by a grant
       supported activity” are not clear, (2) no funds are collected by the Division from the
       farmers for exchange of services on SWAs, and (3) there is no guidance or standards for
       establishing values of exchanged services. The Division also stated that it will request
       FWS to provide further clarification and guidance in these areas.

       FWS Response
       FWS concurred with the finding and recommendation and stated that it is in the process
       of developing national guidelines to address reporting requirements for barter
       transactions. FWS further stated that it will incorporate the requirement to comply with
       this guidance in the corrective action plan.

       Office of Inspector General Comments
       We agree that FWS national guidelines are needed in this area, and are pleased to see that
       FWS is in the process of developing such guidelines. However, since the Division did not
       agree with the finding, we consider it unresolved.

E. Insufficient Timekeeping System
The automated employee timekeeping system (KRONOS) did not contain sufficient edits to
prevent an employee from recording excessive hours worked. A Division employee incorrectly
recorded 500 hours under one cost element and 6 hours under another cost element on the same
day. The employee recorded a total of 731 hours for that month, and KRONOS processed the
data as recorded by the employee. The timekeeping system should contain sufficient system
edits to prevent illogical data such as this from being processed. However, we were told that
Division and other State agency managers had certain logic edits disabled in order to facilitate
data entry. The recording of excessive hours described above resulted in a misallocation of labor




                                                 11
costs to two grants. Grant W-182-R-3 was overcharged $3,093, and Grant W-183-R-3 was
undercharged $2,559.

           Recommendations
           We recommend that FWS require the Division to:

           1.   Resolve the misallocation of labor costs to Grants W-182-R-3 and W-183-R-3.

           2.    Modify KRONOS to include sufficient logic edits or implement compensating
                 manual controls to ensure that excessive or illogical hours are not recorded and
                 processed.

           Division Response
           The Division concurred with the finding. The Division stated that it agreed that Grant
           W-182-R-3 was overcharged and proposed addressing the overcharge by adjusting the
           SFY 2006 grant. However, the Division did not agree that the misallocation of labor
           costs on Grant W-183-R-3 needs to be resolved because Federal rules do not prohibit the
           undercharging of grants. The Division also stated that is has implemented adequate
           accounting controls to prevent the over-reporting of personnel costs, and identified these
           controls in its response.

           FWS Response
           FWS concurred with the finding and recommendations. FWS stated that it agreed with
           the Division that the misallocation of labor costs on Grant W-183-R-3 does not need to
           be resolved because Federal rules do not prohibit the undercharging of grants. FWS
           further stated that the Division’s proposal to implement the other recommendations will
           be addressed during the development of the corrective active plan.

           Office of Inspector General Comments
           Based on the responses, we consider this finding resolved but the recommendations not
           implemented.

F. Ineligible Use of Federal Assistance Funds on Properties Acquired with
   Land and Water Conservation Funds
The FWS Manual6 states that Federal Assistance funds cannot be used to operate or maintain
properties or facilities purchased or constructed under the Land and Water Conservation Fund
(LWCF) Act of 1965. Section 6(f)(1) of the Act requires states to operate and maintain by
acceptable standards, at state expense, the particular properties or facilities acquired or developed
for public outdoor recreation use. Accordingly, costs charged to Federal Assistance grants for the
6
    Paragraph 7.5B of Chapter 522




                                                   12
operation and maintenance of property acquired or developed with LWCF funds are not eligible
for reimbursement.

We found that the Division operated and maintained its 214 SWAs with Federal Assistance
funds under Grants FW-46-M-3 and FW-46-M-4, including 10 SWAs that contained real
property that was acquired with LWCF funds. We were unable to identify the actual grant costs
associated with these LWCF-funded assets because the Division did not account for operation
and maintenance costs at the property or SWA level. However, the grants contained cost
estimates for the operation and maintenance of each SWA during SFYs 2002 and 2003. The
estimated annual cost to operate and maintain the 214 SWAs was $1,822,949, which included
$253,447 for the 10 SWAs containing assets purchased with LWCF funds, as follows:

                       Property Name                                  O&M Cost Estimate
                  Bodo SWA                                                $6,701
                  Cherokee SWA – Lone Pine Unit                           62,193
                  Dome Rock SWA                                              250
                  Hugo SWA                                                16,700
                  Perins Peak SWA7                                        30,365
                  Queens SWA                                              37,288
                  Ramah Reservoir SWA                                        750
                  South Republican SWA8                                   68,592
                  Two Buttes Reservoir SWA9                               28,808
                  Walker SWA                                               1,800
                    Total                                               $253,447


FWS will need to work with the Division to develop a reasonable estimate of the amount of
Federal Assistance funds used to operate and maintain the LWCF-funded lands and facilities in
the 10 SWAs. These costs are ineligible for Federal Assistance funding.

        Recommendations
        We recommend that FWS:

        1.       Resolve the issue of Federal Assistance funds used during the SFYs 2002 and
                 2003 to operate and maintain the lands and facilities acquired or developed with
                 funds obtained through the Land and Water Conservation Fund Act at the 10
                 SWAs.

7
  Division officials said that the proceeds from a Federal condemnation of LWCF-funded lands at Bodo SWA were
used to acquire inholdings at Perins Peak SWA.
8
  Division officials said that LWCF funds were used to acquire water storage rights at Bonny Reservoir. Bonny
Reservoir is within the boundary of South Republican SWA.
9
  Division officials said that LWCF funds were used to acquire a dam and water storage rights at Twin Buttes
Reservoir SWA.




                                                     13
       2.     Require the Division to establish controls to ensure that Federal Assistance funds
              are not used to operate and maintain lands and facilities acquired or developed
              with funds obtained under the Land and Water Conservation Fund Act.

       Division Response
       The Division concurred with the finding and recommendations. The Division stated that
       in its recently renewed 5-year grant for SWA operations and maintenance (O&M), it
       subtracted a portion of the Federal Assistance funds from the O&M budget. The amount
       deducted was equivalent to the proportion of acreage within the SWAs that was
       purchased with LWCF funds.

       FWS Response
       FWS concurred with the finding and recommendations and stated that the Division’s
       proposal to implement the recommendations will be considered in development of the
       corrective action plan.

       Office of Inspector General Comments
       The Division’s response did not address Recommendation 1, and the FWS response did
       not state whether it agreed with the actions identified in the Division’s response.
       Accordingly, we consider the finding unresolved and the recommendations not
       implemented.

G. Network Access Controls
Former Division employees and contractors still had access to the Division network because
access privileges were not removed in a timely manner when employment was terminated and
contractors completed their work. Logical access controls should provide reasonable assurance
that computer resources are protected against unauthorized modification, disclosure, and loss.
However, the Division financial services manager was not always notified when employees and
contractors departed. As a result, terminated employees and prior contractors potentially had
unauthorized access to the Division network. Such unauthorized access increases the risk that
modification, loss, damage, or theft of valuable information and/or resources may occur and may
ultimately affect data reliability. At a minimum, terminated employees and prior contractors
may obtain access to sensitive data and systems for which they are not authorized.

       Recommendations
       We recommend that FWS require the Division to:

       1.     Limit user access to the Division network to current authorized employees and
              contractors.




                                              14
         2.       Ensure that terminated employee and contractor access privileges are removed in
                  a timely manner.

         Division Response
         The Division concurred with the finding and recommendations, and identified additional
         network access controls that it plans to implement by June 30, 2005.

         FWS Response
         FWS concurred with the finding and recommendations and stated that the Division’s
         proposal to implement the recommendations will be incorporated in the corrective action
         plan.

         Office of Inspector General Comments
         Based on the responses, we consider this finding resolved but the recommendations not
         implemented.

H. Inaccurate Personal Property Inventory Data

The Division’s personal property inventory maintained by the Department contained inaccurate
data. The State of Colorado Fiscal Rule 1-10 states that each state agency or institution of higher
education is responsible for ensuring that all equipment10 acquired by the State is properly
accounted for when acquired, inventoried, and safeguarded throughout its useful life and
properly accounted for at the time of disposal.

As of December 30, 2003, the Division’s personal property inventory contained 919 items
valued at $15,864,683. There were 239 items, valued at $3,134,898, that were assigned to 22
responsible persons11at the sites we visited. We selected 122 items, valued at $1,823,736, for
review to determine whether the items physically existed and were in useable condition. Eight
items totaling $83,856 could not be located because the inventory list had not been updated or
the responsible person had not verified the physical existence before certifying the accuracy of
the inventory list. We also found six items, valued at $56,996, that were not on the inventory for
those responsible persons visited because either the inventory list had not been updated or the
property had not been added to the inventory. In addition, the Division did not conduct annual
self-inventories properly.




10
   Equipment is defined as tangible personal property that has a useful life of more than one year, has an acquisition
cost of more than $5,000, is not a permanent part of a building and does not lose its identity through incorporation
into a more complex unit.
11
   Inventory items are assigned to a responsible person. The items may be stored or used at several sites.




                                                         15
       Recommendation
       We recommend that the FWS require the Department to keep accurate inventory
       databases of property acquired with Federal Assistance, license fees, or other funding
       sources and to update the inventory timely for additions, deletions, and location changes.

       Division Response
       The Division concurred with the finding. The response identified the steps that both the
       Department of Natural Resources (Department) and the Division plan to take to resolve
       the finding.

       FWS Response
       FWS concurred with the finding and recommendation and stated that the Division’s
       proposal to implement the recommendation will be incorporated in the corrective action
       plan.

       Office of Inspector General Comments
       Based on the responses, we consider this finding resolved but the recommendations not
       implemented.

I. Personal Property Missing State Identification Numbers
We found that 31 of the 919 items on the Division’s December 30, 2003 inventory did not have a
State ID property tag number assigned. The value of the 31 items was $836,355. The State of
Colorado Fiscal Rule 1-10 states that each State agency or institution of higher education is
responsible for ensuring that all equipment acquired by the State is properly accounted for when
acquired, inventoried, safeguarded throughout its useful life, and properly accounted for at the
time of disposal. In addition, a Departmental Directive, revised January 1998, requires that all
personal property be listed by State ID number for each organization and that the property tags
be issued on a quarterly basis. We found that the Department had no procedures to ensure that
all personal property items had State ID property tag numbers entered in the inventory listing.

       Recommendation
       We recommend that FWS require the Department to develop procedures to ensure that
       State ID numbers are assigned to all personal property.

       Division Response
       The Division concurred with the finding and stated that the Department will develop
       procedures to ensure that State ID numbers are assigned to all personal property. The




                                               16
Department is in the process of revising its Departmental Fixed Asset Policy, and will
provide training to Division personnel when the revision is completed.

FWS Response
FWS concurred with the finding and recommendation and stated that the Division’s
proposal to implement the recommendations will be incorporated in the corrective action
plan.

Office of Inspector General Comments
Based on the responses, we consider this finding resolved but the recommendations not
implemented.




                                        17
                                                                                             Appendix 1
                  COLORADO DIVISION OF WILDLIFE
              FINANCIAL SUMMARY OF REVIEW COVERAGE

                                                                                 Questioned Costs
                                                                ∗
        Grant Number            Grant Amount          Claimed Costs            Total    Federal Share
        F-83-R-15                     $648,719              $559,820
        F-83-R-16                      640,952               516,688
        F-85-R-15                       20,000                     0
        F-86-R-15                      631,408               627,314
        F-86-R-16                      716,904               716,587
        F-95-C-15                      101,496                76,079
        F-95-C-16                       99,100                94,046
        F-161-R-12                     169,660               160,433
        F-161-R-13                     173,550               170,842
        F-237-R-9                      460,840               339,152
        F-237-R-10                     431,538               428,745
        F-239-R-9                      146,798               145,545
        F-239-R-10                     171,449               161,524
        F-242-R-9                       75,017                75,017
        F-242-R-10                      91,673                91,663
        F-243-R-9                      163,986               163,579
        F-243-R-10                     219,005                83,304
        F-271-R-8                       20,000                20,000
        F-288-R-5                      138,848               138,848
        F-288-R-6                      179,005               171,585
        F-312-D-6                    2,450,575             2,177,945
        F-312-D-7                    2,697,620             2,325,861
        F-338-D-1                      257,900                     0
        F-351-E-1                      117,953                87,429
        F-359-B-1                      173,715                     0
        F-360-D-1                      184,298               103,523
        F-362-D-1                      945,275               163,979
        F-365-D-2                      148,000               130,877
        F-367-E-1                      200,477               150,000
        F-370-D-1                      505,388               150,500
        F-371-D-1                       91,760                42,500
        F-372-D-1                       84,450                     0
        F-376-E-1                      308,500                     0
        F-377-B-1                       20,000                     0

∗
 Claimed Costs represents direct expenses recorded within the State’s accounting system and indirect costs
allocated to a Federal Assistance grant during SFY 2002 and 2003.




                                                        18
                                                             Appendix 1
        COLORADO DIVISION OF WILDLIFE
    FINANCIAL SUMMARY OF REVIEW COVERAGE

                                                    Questioned Costs
Grant Number   Grant Amount     Claimed∗ Costs    Total    Federal Share
F-378-B-1             118,898                 0
F-379-L-1             225,000                 0
F-380-B-1             247,150            17,634
F-381-B-1              57,586                 0
F-382-D-1           1,560,902                 0
F-383-B-1              92,794            82,184
F-384-D-1              87,000            63,000
F-386-D-1              27,135            17,386
F-387-R-2             362,248          244,100
F-387-R-3             414,399          241,938
F-388-D-1              31,460                 0
F-389-B-1              76,580                 0
F-391-D-1             259,795          172,386
F-392-D-1             694,600          268,100
F-393-B-1             266,508          199,881
F-394-R-1              86,056            61,998
F-394-R-2             118,859          101,019
F-395-B-1             209,420          181,162
F-396-B-1             136,538            49,203
F-397-D-1              40,000                 0
F-398-B-1             105,105          105,105
F-399-D-1              90,778                 0
F-400-B-1             112,586          112,585
F-401-D-1              45,900            22,500
F-402-D-1           1,781,555                 0
F-403-B-1             111,415            28,363
F-404-D-1              40,000                 0
F-405-D-1             451,055          200,000
F-406-B-1             122,142          122,143
F-407-B-1             250,000            65,361
F-409-B-1             144,496            45,394
F-410-B-1             500,000                 0
F-411-B-1             624,000             8,338
F-412-D-1              26,050                 0
F-413-D-1             116,680                 0
F-414-D-1              99,700                 0
F-415-D-1             111,824                 0
F-416-D-1              91,183                 0
F-417-D-1             120,400                 0




                                 19
                                                             Appendix 1
        COLORADO DIVISION OF WILDLIFE
    FINANCIAL SUMMARY OF REVIEW COVERAGE

                                                    Questioned Costs
Grant Number   Grant Amount     Claimed∗ Costs    Total    Federal Share
F-418-B-1              13,358                59
F-419-B-1             185,600                 0
F-420-D-1              52,720                 0
F-421-D-1              54,260                 0
F-422-B-1              25,372                 0
F-423-D-1             110,000                 0
F-424-D-1             233,350                 0
F-425-D-1             422,136                 0
F-428-D-1             156,175                 0
FW-28-T-15            973,108           894,042 $296,027       $ 222,020
FW-28-T-16          1,107,225           793,571
FW-31-P-15          1,543,761         1,539,299
FW-31-P-16          1,300,000         1,105,537
FW-43-C-5             151,226           144,979
FW-43-C-6             160,000           102,482
FW-45-L-3             661,776           517,111
FW-45-L-4             697,445           631,590
FW-46-M-3           2,500,000         2,491,474
FW-46-M-4           1,948,141         1,906,205
W-11-L-2                    0                 0
W-11-L-3                    0                 0
W-33-L-5                    0                 0
W-43-L-12                   0                 0
W-70-L-4                    0                 0
W-106-L-3           4,950,000                 0
W-142-L-1                   0                 0
W-148-E-15            737,561           549,559 183,046          137,285
W-148-E-16            807,678           605,759 201,919          151,439
W-182-R-2             662,008           601,932
W-182-R-3             722,903           606,249
W-183-R-2           1,208,208         1,158,616
W-183-R-3           1,401,824         1,325,544
W-185-R-1             250,000           128,716
W-186-E-1             350,000                 0
Total            $46,929,491        $27,585,889 $680,992       $ 510,744




                                 20
                                       Appendix 2


COLORADO DIVISION OF WILDLIFE
       SITES VISITED

             Headquarters
           Division of Wildlife
     Department of Natural Resources

            Regional Offices
               Northeast
               Northwest
               Southeast
               Southwest

          State Wildlife Areas
               Billy Creek
                Cherokee
              Dome Rock
             Plateau Creek
              Rocky Ford

               Hatchery
               Durango

         Motorboat Access Sites
          Brush Hollow SWA
             Douglas Lake
              Loma SWA
           Lon Hagler SWA
              Rama SWA
           Summit Reservoir

        “Fishing is Fun” Projects
          Bear Creek Lake Park
          Colorado River Trail
           Pikeview Reservoir
              Sheldon Lake




                   21
                                                                                                   Appendix 3


                          COLORADO DIVISION OF WILDLIFE
                             STATUS OF AUDIT FINDINGS
                              AND RECOMMENDATIONS


     Recommendation                       Status                             Action Required
    A.1, A.2, C.1, C.2, E.1,     Finding Resolved and           Provide a corrective action plan that
    E.2, G.1, G.2, H, and I      Recommendations Not            includes the actions taken or planned and
                                 Implemented                    the target date and the official responsible
                                                                for implementation of each
                                                                recommendation. The unimplemented
                                                                recommendations remaining at the end of
                                                                90 days (after June 9, 2005) will be
                                                                referred to the Assistant Secretary for
                                                                Policy, Management and Budget for
                                                                resolution and/or tracking of
                                                                implementation.

    B.1,B.2*, D, F1 and F2       Finding Unresolved             Provide a corrective action plan that
                                                                identifies the actions taken or planned to
                                                                resolve the finding and implement the
                                                                recommendations, as well as the basis for
                                                                disagreement with any recommendations.
                                                                The plan should also include the target
                                                                date and the official responsible for
                                                                implementation of each recommendation.
                                                                The unimplemented recommendations
                                                                remaining at the end of 90 days (after
                                                                June 9, 2005) will be referred to the
                                                                Assistant Secretary for Policy,
                                                                Management and Budget for resolution
                                                                and/or tracking of implementation.




*
 Based on the Division’s response to the draft report, we have added a second recommendation for this finding.
Neither the Division nor FWS have had the opportunity to review or provide comments on this recommendation.




                                                       22
  Report Fraud, Waste, Abuse,
     and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
                    General staff, Departmental
              employees, and the general public. We
                 actively solicit allegations of any
             inefficient and wasteful practices, fraud,
           and abuse related to Departmental or Insular
           Area programs and operations. You can report
                allegations to us in several ways.



By Mail:                 U.S. Department of the Interior
                         Office of Inspector General
                         Mail Stop 5341 MIB
                         1849 C Street, NW
                         Washington, D.C. 20240



By Phone:                24-Hour Toll Free          800-424-5081
                         Washington Metro Area      202-208-5300



By Fax:                  202-208-6081




By Internet:             www.oig.doi.gov
